OIG Investigative Reports Press Release Chicago IL., 07/31/2014 - Six Defendants Charged in Separate Fraud Schemes to Obtain $2.7 Million in Mortgages, Student Aid, Bank and Small Business Loans
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of ILLINOIS
NEWS
Six Defendants Charged in Separate Fraud Schemes to Obtain $2.7 Million in Mortgages, Student Aid, Bank and Small Business Loans
FOR IMMEDIATE RELEASE
July 31, 2014
CHICAGO – Six defendants are facing federal fraud charges involving separate
schemes to obtain a total of more than $2.7 million through fraudulent statements in loan
applications submitted to banks, mortgage lenders, several community colleges, the U.S.
Department of Education, and the Small Business Administration since 2006. Five of the
defendants were indicted together yesterday for scheming to fraudulently obtain more than $2.4
million. The sixth defendant, who alone was arrested today, was indicted separately for
allegedly scheming to fraudulently obtain an additional $300,000 in mortgage fraud and student
loan fraud. Both indictments stem from the same investigation of fraudulent loan applications.
In an alleged mortgage fraud scheme, three of the five defendants – ANTHONY
TRICE, then president of Fifty One 06 Property Management and Acquisitions, Inc., JERROD
L. WEATHERSBY, a director and vice president of the defunct company, and NOREEN B.
MIAN, then a licensed loan officer for Exclusive Bancorp., Inc., in Lincolnwood – were
charged with scheming with others between 2006 and 2011 to fraudulently obtain more than $2.1
million in mortgage loans for 14 properties in Chicago and suburban Burnham and Park Forest.
According to the indictment, Trice, 34, of Chicago; Weathersby, 36, of Harvey; and Mian, 34, of
Chicago, prepared and submitted false documents and made false statements to lenders about the
buyers’ qualifications for the loans. Trice also allegedly made false statements in requests for
loan modifications related to two of the properties.
In an alleged student loan fraud scheme between 2010 and 2012, Trice and Weathersby,
together with WARREN K. TAYLOR, 35, and DAVID N. EDWARDS, 37, both of Chicago,
were charged with fraudulently seeking to obtain approximately $240,000, and successfully
obtaining approximately $135,000 by submitting at least 40 fraudulent applications for
admission and federal student aid from Harper College, Elgin Community College, and Joliet
Junior College. According to the indictment, the defendants knew that the applicants — some of
whose identities were acquired by Trice and Weathersby in connection with an earlier credit card
fraud scheme — had not agreed to be enrolled in college, were ineligible for financial aid, and
did not intend to use the financial aid funds for educational purposes. The defendants allegedly
caused the financial aid checks to be sent to certain addresses in Chicago and Park Forest, and
that they then cashed the checks and used the proceeds for themselves and others.
In an alleged credit card fraud scheme between 2006 and 2008, Trice and Weathersby
were charged with obtaining individuals’ personal identifying information by promising to help
them improve their credit ratings and obtain money. According to the indictment, Trice and
Weathersby then made false statements in applications for lines of credit and credit card accounts
and, without the consent of the applicants, withdrew more than $145,000 from the lines of credit
and credit card accounts. During the same time, they also allegedly fraudulently obtained a
$35,000 bank loan, which was guaranteed by the Small Business Administration, and used the
proceeds for personal purposes.
Trice was charged with six counts of mail fraud, five counts of wire fraud, three counts of
bank fraud, and one count each of making false statements on loan applications, student loan
fraud, and aggravated identity theft. Weathersby was charged with one count each of wire fraud
and aggravated identity theft. Taylor was charged with four counts of mail fraud and one count
each of aggravated identity theft and student loan fraud. Mian was charged with two counts of
wire fraud and one count of making false loan application statements, and Edwards was charged
with one count each of mail fraud and student loan fraud.
The indictment also seeks forfeiture of more than $2.41 million from Trice, Taylor, Mian,
and Edwards. All five defendants will be arraigned on later date to be determined in U.S.
District Court and an arrest warrant was issued for Edwards alone.
In a separate indictment, DERREK L. CAMPBELL, II, 34, of Chicago, was charged with
two counts of making false loan application statements and one count each of wire fraud and
student loan fraud for allegedly obtaining more than $300,000 through false statements to
mortgage lenders between 2009 and 2013 in connection with purchasing two properties in 2009,
obtaining federal student aid in 2011, and seeking a loan modification on one of the properties in
2013. The indictment also seeks forfeiture of $302,420.
Campbell was arrested today and was scheduled to be arraigned this afternoon in Federal
Court.
Each count of bank fraud, wire fraud affecting a financial institution, and making false
loan application statements carries a maximum sentence of 30 years in prison and a $1 million
fine; each count of mail fraud carries a maximum sentence of 20 years in prison and a $250,000
fine, and student loan fraud carries a maximum of five years in prison and a $250,000 fine.
Aggravated identity theft carries a mandatory sentence of two years in prison consecutive to any
other sentence and a $250,000 fine.
The charges were announced by Zachary T. Fardon, United States Attorney for the
Northern District of Illinois, and Robert J. Holley, Special Agent-in-Charge of the Chicago
Office of the Federal Bureau of Investigation, together with officials of the U.S. Department of
Education Office of Inspector General, the U.S. Small Business Administration, and the Federal
Housing Finance Agency.
The government is represented by Assistant U.S. Attorney Christopher R. McFadden.
An indictment contains only charges and is not evidence of guilt. The defendants are
presumed innocent and are entitled to a fair trial at which the government has the burden of
proving guilt beyond a reasonable doubt.
Contact: Randall Samborn, Assistant US Attorney, Public Information Officer
Direct: (312) 353-5318, Cell: (312) 613-6700
Top
Printable view
Last Modified: 08/13/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov